           U.S. Department of
                                                              Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Management Advisory on                                              Date:    October 22, 2009
           Dulles Corridor Metrorail Project
           Safety Concerns

  From:    Joseph W. Comé                                                           Reply to
                                                                                    Attn. of:   JA-40
           Assistant Inspector General for
             Surface and Maritime Program Audits

    To:    Federal Transit Administrator

           A potentially serious safety issue regarding the adequacy of foundations at a segment
           of the Dulles Corridor Metrorail Project (Dulles Project) remains unresolved nearly a
           year after we first brought it to the Federal Transit Administration’s (FTA) attention. 1
           The Dulles Project involves a $900 million Federal funding commitment and
           financial support through the American Recovery and Reinvestment Act (ARRA);
           and we previously reported on the need for FTA to provide vigilant oversight of this
           challenging, high-profile transit project. 2 In September 2008, a credible source
           contacted us asserting that the project sponsor had not conducted sufficient testing on
           eleven pier foundations and underlying steel piles that were built 30 years ago and
           will support a portion of the project’s new guiderail. After a review of the source’s
           information by our senior engineer advisor, we generated a Hotline complaint to FTA
           in November 2008. In a June 2009 response to the complaint, FTA reported that the
           issue had been resolved and asked us to close the Hotline case. However, our
           investigation of FTA’s response found that it was incomplete and a subsequent
           review by FTA’s own project oversight consultant concluded that additional testing
           of the 30-year old structures is still needed before the project’s safety can be
           certified.

           This safety concern, combined with the additional scrutiny required for projects
           receiving ARRA funding, has prompted us to plan an audit of FTA’s oversight of the
           Dulles Project. Both the President and Congress called on Federal agencies to ensure

           1
               OIG Hotline Number 09IH-A35-I-000, November 13, 2008.
           2
               OIG Report Number MH-2007-060, “Baseline Report on Major Project Monitoring of the Dulles Corridor Metrorail
               Project,” July 27, 2007. Our reports can be found on our website: www.oig.dot.gov.
                                                                                      2


unprecedented transparency, provide enhanced oversight, and prevent imprudent
investments of ARRA funds. Accordingly, in advance of finalizing our Dulles
Project audit plan, we are issuing this advisory to ensure that FTA promptly
addresses our specific safety concern and provides effective oversight. Our
conclusions can be found at the end of this advisory.

BACKGROUND
In July 2007, we reported on risk indicators that warranted FTA’s close monitoring
of the Dulles Project, including the project sponsor’s, Metropolitan Washington
Airports Authority (MWAA), lack of experience in transit construction. We stressed
the need for vigilant oversight to prevent the cost increases, schedule delays, and
construction quality problems that we had observed on other projects with similar
risk indicators.

In September 2008, we became aware of assertions that insufficient safety testing
was done on eleven 30-year old foundations and piles. Further, we learned that
MWAA and its contractor, Dulles Transit Partners (DTP—a partnership of Bechtel
Infrastructure, Inc. and Washington Group International—now URS Corporation),
plan to use these existing foundations and underlying piles to support elevated track
that will span part of Interstate 66 and merge with existing Metrorail track in the
direction of East Falls Church Station.

In order to certify the safety of using the existing foundations for the new project, it
is necessary to confirm the foundations’ capacity to bear the required loads and
verify their physical integrity. Critical elements necessary to evaluate the safety of
the foundations include:

 “as-built” drawings to confirm the exact location and as-built configuration of the
  foundation structures, such as piles and their concrete caps, and determine how
  the load is distributed among these structures;

 original pile-driving records from when the foundation piles were driven into the
  ground, or subsequent pile load tests to confirm the load-bearing capacity; and

 knowledge of the physical condition of the site and the existing foundations to
  assess whether any damage has occurred over time that could reduce their service
  life.

In the absence of as-built drawings and other historical data, it is prudent to conduct
comprehensive pile load testing and physical observation and measurements.

On November 13, 2008, our Hotline office requested that FTA respond to the
assertions of insufficient testing. Specifically, we requested that FTA provide
                                                                                                               3


(1) verification of the plan to use existing pile foundations and actions FTA was
taking to ensure the safety of this approach; (2) information on the level of
knowledge FTA’s project management oversight consultant (PMOC) had of this
approach and whether the PMOC opined on its safety; (3) confirmation that MWAA
believed this approach would be safe; and (4) confirmation that the Washington
Metropolitan Area Transit Authority (WMATA), the eventual operator of the transit
extension, 3 was aware of this approach and in agreement that it would be safe.

RESULTS OF OUR REVIEW OF FTA’S RESPONSE TO THE
HOTLINE COMPLAINT
FTA’s June 2009 response to our Hotline complaint was incomplete and inconsistent
with subsequent information that FTA provided to us. FTA’s response concluded
that DTP had conducted adequate physical investigations and verification of the
foundations’ locations. Relying on assurances from MWAA and DTP, FTA’s
response provided an inventory of existing pier foundations; planned piles work at
each location; the results of physical investigations on three of the existing
foundations, and their condition; and the location of the piles as depicted in what
FTA’s response referred to as “as-built” plans. FTA further stated that DTP’s visual
inspections of the three foundations did not find any corrosion in the piles, and
verified the location of all other piles by test pits. FTA recommended closing the
Hotline case with no further action required.

Because FTA did not completely respond to our requests on whether other parties
were aware of the planned use of the existing foundations and whether they agreed
with the safety of this approach, we requested additional information. On
September 16, 2009, FTA provided us with additional documentation including the
following:

     A September 14, 2009, PMOC “spot report” on the safety issues involved with
      the eleven foundations. FTA’s PMOC determined that it could not confirm the
      load capacity of the piles without as-built plans and pile driving data. Further, the
      PMOC concluded that two 2008 load tests were insufficient to confirm the
      capacity of all the piles and “due diligence” required that pile data analysis testing
      (PDA) be performed at all locations—not at six locations as the project’s
      contractor proposed.        The PMOC also recommended physical corrosion
      measurements at five specific locations.

     A February 2009 report by a consultant on corrosion and stray current
      measurements at three foundation locations. The report shows that, although the
      steel loss experienced over 30 years has not compromised the integrity of the

3
    Upon completion of the project, MWAA will turn it over to WMATA. The project will then be operated as part of
    WMATA’s larger Metrorail system.
                                                                                     4


   piles, possible high stray currents from nearby existing Metrorail tracks could
   corrode the piles and affect their service life, leading to the need for greater
   maintenance over time. WMATA’s eventual acceptance of the existing
   foundations is contingent on compliance with the design criteria, particularly a
   demonstration that the foundations meet WMATA’s 100-year service life
   requirement for new structures.

Overall, our review of this engineering documentation showed that the information
was inconsistent with FTA’s June 2009 response. As a result, FTA and its PMOC
did not have assurance that sufficient testing had occurred at the time FTA asked us
to close the Hotline complaint. For example, according to the September 2009
documentation, there are no as-built drawings for the existing foundations, as FTA
and the project sponsor initially stated.

In conclusion, we agree with the PMOC’s recommendation for additional testing and
measurements. The lack of as-built plans and pile driving records, and the fact that
only two pile load tests were done, underscore the need for additional testing to
confirm the location and load capacity of all the foundations that the contractor plans
to use in the Dulles Project. Also, implementing the PMOC’s recommendations is
necessary to resolve WMATA’s concerns about the service life of the foundations.

Further, we are concerned that the PMOC appeared to focus attention on these issues
only after we raised questions about FTA’s response to the Hotline complaint. We
are also aware that FTA recently informed MWAA of the PMOC’s recommendations
and requested a response as to how the safety concerns will be addressed. However,
given the seriousness of the issues raised in this management advisory and to
mitigate any potential safety risks, FTA should conduct a review of its PMOC’s
performance to assess whether it is ensuring adequate oversight coverage of the
project. FTA should also develop a plan outlining how FTA will ensure that
sufficient testing of the existing foundations will take place before additional
construction is undertaken at the locations in question. Finally, FTA should outline
any additional steps FTA plans to take to enhance future oversight of the Dulles
Project.

We request a written response detailing any actions FTA plans to take with regard to
this potential safety issue within 4 weeks of the date of this memorandum. We will
consider actions taken as a result of this management advisory as part of our planned
audit of FTA’s Dulles Project oversight, including cost, schedule, project
management, financing, safety, and interagency coordination issues. We will contact
your audit liaison before we begin our audit.
                                                                  5


If you have any questions concerning this memorandum, please call me
at (202) 366-5630.

                                        #

cc: Robert Tuccillo, FTA
    Susan Schruth, FTA
    Letitia Thompson, FTA
    Brian Glenn, FTA
    Scott Biehl, FTA
    Robert Owens, FTA
    Martin Gertel, OST
    Heather Albert, Office of Inspector General Hotline
